APPENDIX

1a
APPENDIX: LIST OF AMICI CURIAE 1
David Abraham, Professor of Law Emeritus,
University of Miami School of Law; Raquel E.
Aldana, Associate Vice Chancellor for Academic
Diversity and Professor of Law, UC Davis School of
Law; T. Alexander Aleinikoff, University Professor
& Director, Zolberg Institute on Migration & Mobility,
The New School; David Baluarte, Associate Dean for
Academic Affairs and Associate Clinical Professor of
Law, Washington and Lee University School of Law;
Jon Bauer, Clinical Professor of Law & Richard D.
Tulisano ’69 Scholar in Human Rights, University of
Connecticut School of Law; Lenni B. Benson,
Distinguished Professor of Immigration & Human
Rights Law & Founder, Safe Passage Project Clinic,
New York Law School; Jason A. Cade, J. Alton
Hosch Associate Professor of Law, University of
Georgia Law School; Gabriel J. Chin, Edward L.
Barrett Jr. Chair & Martin Luther King Jr. Professor
of Law, University of California, Davis School of Law;
Dree K. Collopy, Adjunct Professor, American
University Washington College of Law; Kristina M.
Campbell, Jack & Lovell Olender Professor of Law,
Co-Director of the Immigration and Human Rights
Clinic, University of the District of Columbia David A.
Clarke School of Law; Linus Chan, Associate Clinical
Professor of Law, University of Minnesota Law
School; Violeta R. Chapin, Clinical Professor of Law,
University of Colorado Law School; Michael J.
1
Institutional affiliations are provided for identification
purposes only.

2a
Churgin,
Raybourne
Thompson
Centennial
Professor in Law, University of Texas at Austin;
Jenny-Brooke Condon, Professor of Law, Seton
Hall Law School; Ingrid V. Eagly, Professor of Law,
University of California, Los Angeles School of Law;
Maryellen Fullerton, Suzanne J. and Norman Miles
Professor of Law, Brooklyn Law School; Lauren
Gilbert, Professor of Law, St. Thomas University
School of Law; Nicole Hallett, Associate Clinical
Professor of Law & Director, Immigrants’ Rights
Clinic, University of Chicago Law School; Lindsay M.
Harris, Associate Professor & Co-Director,
Immigration & Human Rights Clinic, University of
the District of Columbia David A. Clarke School of
Law; Dina Francesca Haynes, Professor of Law at
New England Law, Boston; Susan V. Hazeldean,
Associate Professor of Law, Brooklyn Law School;
Geoffrey Heeren, Visiting Clinical Professor,
University of Iowa College of Law; Laura A.
Hernández, Professor of Law, Baylor Law School;
Barbara Hines, retired Adjunct Professor & Clinical
Professor, University of Texas School of Law; Bill
Ong Hing, Professor of Law & Director, Immigration
and Deportation Defense Clinic, University of San
Francisco School of Law; Geoffrey A. Hoffman,
Clinical Professor & Director, Immigration Law
Clinic, University of Houston Law Center; Mary
Holper, Associate Clinical Professor & Director,
Immigration Clinic, Boston College Law School; Alan
Hyde, Distinguished Professor of Law, Rutgers
University; Anil Kalhan, Associate Professor of Law,
Drexel University Thomas R. Kline School of Law;
Daniel Kanstroom, Professor of Law & Thomas F.

3a
Carney Distinguished Scholar, Boston College Law
School; Kathleen Kim, Professor of Law at Loyola
Law School, Los Angeles; Jennifer Lee Koh, Visiting
Professor of Law, UC Irvine School of Law; Robert
Koulish, Director of MLaw Programs & Joel J. Feller
Research Professor, University of Maryland; Hiroko
Kusuda, Clinical Professor, Loyola University New
Orleans College of Law; Annie Lai, Clinical Professor
of Law, University of California, Irvine School of Law;
Christopher N. Lasch, Professor of Law & CoDirector, Immigration Law & Policy Clinic, University
of Denver Sturm College of Law; Stephen
Legomsky, John S. Lehmann University Professor
Emeritus, Washington University School of Law;
Lynn Marcus, Clinical Professor of law & Director,
Immigration Law Clinic, University of Arizona James
E. Rogers College of Law; Thomas M. McDonnell,
Professor of Law, Elizabeth Haub School of Law, Pace
University; Estelle M. McKee, Clinical Professor of
Law & Co-Director, Asylum & Convention Against
Torture Appellate Clinic, Cornell Law School; M.
Isabel Medina, Ferris Family Distinguished
Professor of Law, Loyola University New Orleans
College of Law; Vanessa Merton, Professor of Law &
Faculty Supervisor, Immigration Justice Clinic,
Elizabeth Haub School of Law, Pace University;
Jennifer Moore, Professor of Law, University of
New Mexico School of Law; Nancy Morawetz,
Professor of Clinical Law, New York University
School of Law; Hiroshi Motomura, Susan
Westerberg Prager Distinguished Professor of Law,
University of California, Los Angeles, School of Law;
Craig Mousin, Adjunct Faculty, DePaul College of

4a
Law; Elora Mukherjee, Jerome L. Greene Clinical
Professor of Law & Director, Immigrant Rights’
Clinic, Columbia Law School; Raquel Muñiz,
Assistant Professor & Liaison, Boston College Lynch
School of Education & Human Development & School
of Law; Lori A. Nessel, Professor of Law, Director of
the Center for Social Justice, Seton Hall University
School of Law; John R. B. Palmer, Associate
Professor, Sociodemography Research Group and
Interdisciplinary Research Group on Immigration,
Department of Political and Social Sciences,
Universitat Pompeu Fabra, Barcelona, Spain; Jason
Parkin, Professor of Law, CUNY School of Law;
Huyen Pham, Professor of Law, Texas A&M
University School of Law; Polly J. Price, Asa Griggs
Candler Professor of Law, Emory University School of
Law; Jaya Ramji-Nogales, I. Herman Stern
Professor of Law, Temple University, Beasley School
of Law; Andrea Ramos, Director of the Immigration
Law Clinic & Clinical Professor of Law, Southwestern
Law School; Sarah Rogerson, Clinical Professor of
Law, Director of Immigration Law Clinic, Albany Law
School; Ediberto Roman, Professor of Law &
Director of Immigration and Citizenship Initiatives,
Florida International University; Jon Romberg,
Associate Professor, Seton Hall University School of
Law; Victor C. Romero, Maureen B. Cavanaugh
Distinguished Faculty Scholar, Professor of Law,
Penn State Law; Rachel Rosenbloom, Professor of
Law, Northeastern University School of Law; Irene
Scharf,
Professor
of
Law,
University
of
Massachusetts School of Law; Andrew I.
Schoenholtz, Professor from Practice at Georgetown

5a
University Law Center; Erica Schommer, Clinical
Professor of Law, St. Mary’s University School of Law;
Ragini N. Shah, Clinical Professor of law, Suffolk
University Law School; Jayashri Srikantiah,
Professor of Law, Director of the Immigrants’ Right
Clinic, & Associate Dean of Clinical Education,
Stanford Law School; Elissa Steglich, Co-Director &
Clinical Professor of the Immigration Clinic,
University of Texas School of Law; Juliet Stumpf,
Robert E. Jones Professor of Advocacy and Ethics,
Lewis and Clark Law School; Maureen A. Sweeney,
Law School Professor, University of Maryland Carey
School of Law; Margaret H. Taylor, Professor of
Law, Wake Forest University School of Law; Claire
R. Thomas, Adjunct Professor of Law, New York Law
School; David B. Thronson, Alan S. Zekelman
Professor of International Human Rights Law,
Michigan State University College of Law; Philip L.
Torrey, Managing Attorney and Lecturer on Law,
Harvard Immigration and Refugee Clinical Program,
Harvard Law School; Diane Uchimiya, Professor of
Law & Director of the Justice and Immigration Clinic,
University of La Verne College of Law; Leti Volpp,
Robert D. and Leslie Kay Raven Professor of Law,
University of California, Berkeley School of Law;
Jonathan Weinberg, Professor of Law & Associate
Dean for Research & Faculty Development, Wayne
State University; Deborah M. Weissman, Reef C.
Ivey II Distinguished Professor of Law, University of
North Carolina School of Law; Anna Welch, Sam L.
Cohen Refugee and Human Rights Clinical Professor,
University of Maine School of Law; Lauris P. Wren,
Clinical Professor & Director of the Asylum Clinic,

6a
Maurice A. Deane School of Law, Hofstra University;
and Stephen Yale-Loehr, Professor of Immigration
Practice, Cornell Law School.

